HHS/OIG, Audit -"Review of Fiscal Year-End Billing For Inpatient Rehabilitation
Facility Claims Under The Administrative Responsibility Of Palmetto GBA For 2002,"(A-01-05-00522)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Fiscal Year-End Billing For Inpatient
Rehabilitation Facility Claims Under The Administrative Responsibility Of Palmetto GBA For
2002," (A-01-05-00522)
May 11, 2006
Complete
Text of Report is available in PDF format (641 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether inpatient rehabilitation facilities (IRFs) under
the administrative responsibility of Palmetto, GBA (Palmetto) billed fiscal year-end inpatient
rehabilitation claims in accordance with Medicare requirements during the transition to the
prospective payment system in 2002.  Eleven IRFs did not bill fiscal year-end claims
in accordance with Medicare requirements.   As a result, Medicare made net overpayments
of $207,289.  Most of the payment errors occurred because the IRFs did not have adequate
controls to ensure that claims submitted at fiscal year-end were billed in accordance with
Medicare requirements.  Additionally, several IRFs stated that they had split their
claims as a result of discussions with Palmetto or in response to error messages received
from the claims processing system.  We were unable to validate these assertions.
We recommended that Palmetto make the appropriate adjustments to paid claims that resulted
in net overpayments of $207,289 to the 11 IRFs and continue education efforts for IRF and
Palmetto personnel.  Palmetto agreed with our recommendations.